No Shepard’s Signal™
As of: May 24, 2021 7:14 PM Z

United States v. Smith
United States Court of Appeals for the Fifth Circuit
February 26, 2021, Filed
No. 20-50187 Summary Calendar
Reporter
840 Fed. Appx. 782 *; 2021 U.S. App. LEXIS 5816 **; 2021 WL 774059

UNITED STATES OF AMERICA, Plaintiff—Appellee, versus SAMUEL EARL SMITH, Defendant—Appellant.

Notice: PLEASE REFER TO FEDERAL RULES OF APPELLATE PROCEDURE RULE 32.1 GOVERNING THE
CITATION TO UNPUBLISHED OPINIONS.

Prior History: [**1] Appeal from the United States District Court for the Western District of Texas. USDC No. 6:18CR-259-2.

Disposition: AFFIRMED.

Core Terms
enhancement, plain error, methamphetamine, mixture, complaints, organizer, asserts, cocaine, leader, purity,
grams, criminal activity, obvious error, co-defendant, Sentencing, conspiracy, distribute, four-level, requisite,
supplier, qualify, tested

Counsel: For United States of America, Plaintiff - Appellee: Joseph H. Gay, Jr., Asistant U.S. Attorney, U.S.
Attorney's Office, Western District of Texas, San Antonio, TX.
For Samuel Earl Smith, Defendant - Appellant: Stanley Lee Schwieger, Law Offices of Stan Schwieger, Waco, TX.

Judges: Before JONES, BARKSDALE, and STEWART, Circuit Judges.

5/24/2021
Smith
v. United
4:10:59
States
PM A-1

840 Fed. Appx. 782, *782; 2021 U.S. App. LEXIS 5816, **1

Opinion
[*783] PER CURIAM:*
Samuel Earl Smith pleaded guilty to three counts involving conspiracy to possess, with intent to distribute, and to
distribute: at least 500 grams of a mixture or substance containing methamphetamine; at least 500 grams of a
mixture or substance containing cocaine; and at least 280 grams of a mixture or substance containing crack
cocaine, in violation of 21 U.S.C. §§ 846, 841(a)(1) and (b)(1). He was sentenced to, inter alia, concurrent terms of
300-months' imprisonment on each count.
Smith challenges the court's calculation of his Sentencing Guidelines range, asserting the court erred by: imposing
a four-level "organizer or leader" enhancement; and finding the methamphetamine attributed to him qualified as
"Ice". See U.S.S.G. § 2D1.1(c), Note (C) (defining "Ice" as "a mixture or substance containing [**2] dmethamphetamine hydrochloride of at least 80% purity").
As Smith concedes, he did not raise these issues in district court. Because they were not preserved, review is only
for plain error. E.g., United States v. Broussard, 669 F.3d 537, 546 (5th Cir. 2012). Under that standard, Smith must
show a forfeited plain error (clear or obvious error, rather than one subject to reasonable dispute) that affected his
substantial rights. Puckett v. United States, 556 U.S. 129, 135, 129 S. Ct. 1423, 173 L. Ed. 2d 266 (2009). If he
makes that showing, we have discretion to correct the reversible plain error, but generally should do so only if it
[*784] "seriously affect[s] the fairness, integrity or public reputation of judicial proceedings". Id. The court did not
commit the requisite clear or obvious error for either issue.
First addressed is the four-level enhancement for Smith's being an organizer or leader of a criminal activity
involving five or more participants. See U.S.S.G. § 3B1.1(a). The presentence investigation report (PSR) details
intercepted telephone calls in which Smith either received complaints or solicited feedback about the quality of the
cocaine he provided. Smith asserts these facts do not support the court's enhancement because he merely
received the complaints without taking any action. Neither party has cited controlling authority from our court [**3]
addressing whether the receipt of complaints about the quality of the drugs provided supports an "organizer or
leader" enhancement. "We ordinarily do not find plain error when we have not previously addressed an issue."
United States v. Evans, 587 F.3d 667, 671 (5th Cir. 2009) (internal quotation marks and citation omitted).
Other facts also support the enhancement. Smith does not appear to dispute that his criminal activities involved five
or more participants or was otherwise extensive. See U.S.S.G. § 3B1.1(a). Smith also directed at least one codefendant during a part of the conspiracy, and our court has held supervision of even one individual is sufficient to
establish eligibility for the enhancement. See, e.g., United States v. Cooper, 274 F.3d 230, 247 (5th Cir. 2001). In
addition, the PSR suggests Smith was the sole source of supply for his co-defendants; although this should not be
the only factor, our court has held it is a relevant factor that can support the enhancement. See United States v.
Haines, 803 F.3d 713, 744 (5th Cir. 2015).
As noted supra, the remaining issue is also reviewed only for plain error: the court's finding the methamphetamine
was of sufficient purity to qualify as "Ice", which increased Smith's base offense level. See U.S.S.G. § 2D1.1(c),
Note (C) (defining "Ice"); see also U.S.S.G. § 2D1.1, cmt. n.8(D) ("Drug Conversion Tables"). Smith asserts the
PSR's description of the source of the [**4] tested methamphetamine is unclear; if the sample did not come directly
from his own supplier, Smith claims the link between himself and the sample is insufficiently reliable.
We interpret the PSR's description to mean the sample was obtained from the person who directly supplied Smith.
Even if Smith's contrary interpretation is correct, he cannot show the requisite plain error. The PSR described the

* Pursuant

to 5TH CIRCUIT RULE 47.5, the court has determined that this opinion should not be published and is not precedent
except under the limited circumstances set forth in 5TH CIRCUIT RULE 47.5.4.
5/24/2021
Smith
v. United
4:10:59
States
PM A-2

840 Fed. Appx. 782, *784; 2021 U.S. App. LEXIS 5816, **4
testing of two samples, the second of which had been seized directly from Smith's supplier. This second sample
was determined to be 98% pure, well above the 80%-purity level required to qualify as "Ice".
AFFIRMED.

5/24/2021
Smith
v. United
4:10:59
States
PM A-3

Case 6:18-cr-00259-ADA Document 498 Filed 03/05/20 Page 1 of 6

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF TEXAS
WACO DIVISION

UNITED STATES OF AMERICA

Case Number: 6:18-CR-00259(2)-ADA
USM Number: 145 94-480

V.

SAMUEL EARL SMITH
Defendant.

JUDGMENT IN A CRIMINAL CASE
(For Offenses Committed On or After November 1, 1987)
The defendant, SAMUEL EARL SMITH, was represented by Waiter M. Reaves, Jr..
The defendant pled guilty to Counts iS, 2S and 3S ss of the Superseding Information on August 27, 2019. Accordingly, the
defendant is adjudged guilty of such counts, involving the following offenses:

Title & Section

Nature of Offense

Offense Ended

Count

21 U.S.C. § 846 {21 U.S.C. §

Conspiracy to Possess with Intent to
Distribute and to Distribute
Methamphetamine, a Schedule II Narcotic
Drug Controlled Substance

11/20/2018

iS

Conspiracy to Possess with Intent to
Distribute and to Distribute Cocaine, a
Schedule II Narcotic Drug Controlled
Substance

11/20/2018

2S

Conspiracy to Possess with Intent to
Distribute and to Distribute "Crack"
Cocaine, a Schedule II Narcotic Drug
Controlled Substance

11/20/2018

841(b)(i)(A)(viii) and
(b)( 1 )(B)(viii)}
21 U.S.C. § 846 {21 U.S.C. §

841(b)(1)(B)(ii) and (b)(1)(C)}

21 U.S.C. § 846 {21 U.S.C. §

841(b)(1)(A)(iii) and
(b)(1)(B)(iii)}

3S

Upon motion of the United States, the Court has dismissed any remaining Count herein as to this defendant.
As pronounced on March 4, 2020, the defendant is sentenced as provided in pages 2 through 6 of this Judgment. The
sentence is imposed pursuant to the Sentencing Reform Act of 1984.
It is further ordered that the defendant shall notify the United States Attorney for this district within 30 days o any change of
name, residence, or mailing address until all fines, restitution, costs, and special assessments imposed by this judgment are fully paid.
If ordered to pay restitution, the defendant must notify the Court and United States Attorney of material changes in economic

circumstances.
Signed this 5th day of March, 2020.

ALAN D ALBRIGHT
United States District Judge

/24/2021
Smith
v. United
4:10:59States
PM A-4

20-50187.154

Case 6:18-cr-00259-ADA Document 498 Filed 03/05/20 Page 2 of 6
AO 245B (Rev. TXN 10/12) Judgment in a Criminal Case

DEFENDANT:
CASE NUMBER:

Judgment--Page 2 of 6

SAMUEL EARL SMITH
6:1 8-CR-0025 9(2)-ADA

IMPRISONMENT
The defendant is hereby committed to the custody of the United States Bureau of Prisons to be imprisoned for a total term of
is, 2S and 3S with the terms imposed to be served concurrently with each

Three Hundred (300) Months as to each of Counts
other.

The defendant shall remain in custody pending service of sentence.

RETURN
I

have executed this judgment as follows:

Defendant delivered on

to

at _______________________________, with a certified copy of this judgment.

UNITED STATES MARSHAL

By
DEPUTY UNITED STATES MARSHAL
5/24/2021
Smith
v. United
4:10:59
States
PM A-5

20-50187.155

Case 6:18-cr-00259-ADA Document 498 Filed 03/05/20 Page 3 of 6
Judgment -. Page 3 of 6

AO 245B (Rev. TXN 10/12) Judgment in a Criminal Case

DEFENDANT:
CASE NUMBER:

SAMUEL EARL SMITH
6:1 8-CR-00259(2)-ADA

SUPERVISED RELEASE
Upon release from imprisonment, the defendant shall be on supervised release a term of Five (5) Years as to each of Counts

iS, 2S and 3S with the terms imposed to run concurrently with each other.
while on supervised release the defendant shall comply with the mandatory, standard and if applicable, the special conditions
that have been adopted by this Court, and shall comply with the following additional conditions:
The defendant shall submit his or her person, property, house, residence, vehicle, papers, computers (as defmed in 18 U.S.C.
1030(e)(1)), other electronic communications or data storage devices or media, or office, to a search conducted by a United States
probation officer. Failure to submit to a search may be grounds for revocation of release. The defendant shall warn any other
occupants that the premises may be subject to searches pursuant to this condition. The probation officer may conduct a search under
this condition only when reasonable suspicion exists that the defendant has violated a condition of supervision and that the areas to be
searched contain evidence of this violation. Any search shall be conducted at a reasonable time and in a reasonable manner.
§

5/24/2021
Smith
v. United
4:10:59
States
PM A-6

20-50187.156

Case 6:18-cr-00259-ADA Document 498 Filed 03/05/20 Page 4 of 6
Judgment -- Page 4 of 6

AO 245B (Rev. TXN 10/12) Judgment in a Criminal Case

DEFENDANT:
CASE NUMBER:

SAMUEL EARL SMITH
6:1 8-CR-00259(2)-ADA

CONDITIONS OF SUPERVISION
Mandatory Conditions:
[1]

The defendant shall not commit another federal, state, or local crime during the term of supervision.

[2]

The defendant shall not unlawfully possess a controlled substance.

[3]

The defendant shall refrain from any unlawful use of a controlled substance. The defendant shall submit to one drug test
within 15 days of release on probation or supervised release and at least two periodic drug tests thereafter (as determined by
the court), but the condition stated in this paragraph may be ameliorated or suspended by the court if the defendant's
presentence report or other reliable sentencing information indicates low risk of future substance abuse by the defendant.

[4]

The defendant shall cooperate in the collection of DNA as instructed by the probation officer, if the collection of such a
sample is authorized pursuant to section 3 of the DNA Analysis Backlog Elimination Act of 2000 (42 U.S.C. § 141 35a).

[5]

If applicable, the defendant shall comply with the requirements of the Sex Offender Registration and Notification Act (42
U.S.C. § 16901, et. seq.) as instructed by the probation officer, the Bureau of Prisons, or any state sex offender registration
agency in which the defendant resides, works, is a student, or was convicted of a qualifying offense.

[6]

If convicted of a domestic violence crime as defined in

18 U.S.C. § 356 1(b), the defendant shall participate in an approved

program for domestic violence.

of supervision that the defendant pay in accordance with the

[7]

If the judgment imposes a fine or restitution, it
Schedule of Payments sheet of the judgment.

[8]

The defendant shall pay the assessment imposed in accordance with 18 U.S.C. § 3013.

[9]

The defendant shall notify the court of any material change in the defendant's economic circumstances that might affect the
defendant's ability to pay restitution, fmes or special assessments.

is a condition

Standard Conditions:
[1]

The defendant shall report to the probation office in the federal judicial district where he or she is authorized to reside within
72 hours of release from imprisonment, unless the probation officer instructs the defendant to report to a different probation
office or within a different time frame.

[2]

After initially reporting to the probation office, the defendant will receive instructions from the court or the probation officer
about how and when to report to the probation officer, and the defendant shall report to the probation officer as instructed.

[3]

The defendant shall not knowingly leave the federal judicial district where he or she is authorized to reside without first
getting permission from the court or the probation officer.

[4]

The defendant shall answer truthfully the questions asked by the probation officer.

[5]

The defendant shall live at a place approved by the probation officer. If the defendant plans to change where he or she lives
or anything about his or her living arrangements (such as the people the defendant lives with), the defendant shall notify the
probation officer at least 10 days before the change. If notifying the probation officer in advance is not possible due to
unanticipated circumstances, the defendant shall notify the probation officer within 72 hours of becoming aware of a change
or expected change

[6]

The defendant shall allow the probation officer to visit the defendant at any time at his or her home or elsewhere, and the
defendant shall permit the probation officer to take any items prohibited by the conditions of the defendant's supervision that
are observed in plain view.

[7]

The defendant shall work full time (at least 30 hours per week) at a lawful type of employment, unless the probation officer
excuses the defendant from doing so. If the defendant does not have full-time employment, he or she shall try to find full5/24/2021
Smith
v. United
4:10:59
States
PM A-7

20-50187.157

Case 6:18-cr-00259-ADA Document 498 Filed 03/05/20 Page 5 of 6
Judgment -- Page 5 of 6

AO 245B (Rev. TXN 10/12) Judgment in a Criminal Case

DEFENDANT:
CASE NUMBER:

SAMUEL EARL SMITH
6:1 8-CR-0025 9(2)-ADA

time employment, unless the probation officer excuses the defendant from doing so. If the defendant plans to change where
the defendant works or anything about his or her work (such as the position or job responsibilities), the defendant shall notify
the probation officer at least 10 days before the change. If notifying the probation officer at least 10 days in advance is not
possible due to unanticipated circumstances, the defendant shall notify the probation officer within 72 hours of becoming
aware of a change or expected change.
[8]

The defendant shall not communicate or interact with someone the defendant knows is engaged in criminal activity. If the
defendant knows someone has been convicted of a felony, the defendant shall not knowingly communicate or interact with
that person without first getting the permission of the probation officer.

[9]

If the defendant is arrested or questioned by a law enforcement officer, the defendant shall notify the probation officer within
72 hours.

[10]

The defendant shall not own, possess, or have access to a fireann, ammunition, destructive device, or dangerous weapon
(i.e., anything that was designed, or was modified, for the specific purpose of causing bodily injury or death to another person
such as nunchakus or tasers).

[11]

The defendant shall not act or make any agreement with a law enforcement agency to act as a confidential human source or
informant without first getting the permission of the court.

[12]

If the probation officer determines that the defendant poses a risk to another person (including an organization), the probation
officer may require the defendant to notify the person about the risk and the defendant shall comply with that instruction.
The probation officer may contact the person and confirm that the defendant has notified the person about the risk.

[13]

The defendant shall follow the instructions of the probation officer related to the conditions of supervision.

[14]

If the judgment imposes other criminal monetary penalties, it is a condition of supervision that the defendant pay such
penalties in accordance with the Schedule of Payments sheet of the judgment.

[15]

If the judgment imposes a fine, special assessment, restitution, or other criminal monetary penalties, it is a condition of
supervision that the defendant shall provide the probation officer access to any requested fmancial information.

[16]

If the judgment imposes a fme, special assessment, restitution, or other criminal monetary penalties, it is a condition of
supervision that the defendant shall not incur any new credit charges or open additional lines of credit without the approval
of the probation officer, unless the defendant is in compliance with the payment schedule.

[17]

If the defendant is excluded, deported, or removed upon release on probation or supervised release, the term of supervision
shall be a non-reporting term of probation or supervised release. The defendant shall not illegally re-enter the United States.
If the defendant is released from confinement or not deported, or lawfully re-enters the United States during the term of
probation or supervised release, the defendant shall immediately report in person to the nearest U.S. Probation Office.

5/24/2021
Smith v. United
4:10:59StatesA-8
PM

20-50187.158

Case 6:18-cr-00259-ADA Document 498 Filed 03/05/20 Page 6 of 6
Judgment-- Page 6 of 6

AO 245B (Rev. TXN 10/12) Judgment in a Criminal Case

DEFENDANT:
CASE NUMBER:

SAMUEL EARL SMITH
6:1 8-CR-00259(2)-ADA

CRIMINAL MONETARY PENALTIES/SCHEDULE
The defendant shall pay the following total criminal monetary penalties in accordance with the schedule of payments set forth.
Unless the Court has expressly ordered otherwise, if this judgment imposes imprisonment, payment of criminal monetary penalties is
due during imprisonment. Criminal Monetary Penalties, except those payments made through Federal Bureau of Prisons' Inmate
Financial Responsibility Program shall be paid through the Clerk, United States District Court, 800 Franklin Aye, Room 380, Waco,
TX 76701. The defendant shall receive credit for all payments previously made toward any criminal monetary penalties imposed.
If the defendant is not now able to pay this indebtedness, the defendant shall cooperate fully with the office of the United States
Attorney, the Federal Bureau of Prisons and/or the United States Probation Office to make payment in full as soon as possible, including
during any period of incarceration. Any unpaid balance at the commencement of a term of probation or supervised release shall be paid
on a schedule of monthly installments to be established by the United States Probation office and approved by the Court.

TOTALS

Restitution

Fine
$750.00

Assessment
$300.00

$.00

SPECIAL ASSESSMENT
It is ordered that the defendant shall pay to the United States a total special assessment of $300.00; $100.00 as to each of
Counts iS, 2S and 3S. Payment of this sum shall begin immediately.

FINE
The defendant shall pay a fme of $750.00; $250 as to each of Counts iS, 2S and 3S.

FORFEITURE
The defendant is ordered to forfeit the following property to the United States:

Glock 26, SN: R1NL7i2;
Ruger .45, SN: 663-79842; and
Smith & Wesson .38, SN: KAX5238

If the defendant makes a partial payment, each payee shall receive an approximately proportioned payment, unless specified otherwise in the priority order or
percentage payment column above. However, pursuant to 18 U.S.C. § 3664(i), all non-federal victims must be paid before the United States is paid.
If the fine is not paid, the court may sentence the defendant to any sentence which might have been originally imposed. See 18

u.s.c. §3614.

The defendant shall pay interest on any fine or restitution of more than $2,500.00, unless the fine or restitution is paid in full before the fifteenth day after the date of the
judgment, pursuant to 18 U.S.C. §3612(t). All payment options may be subject to penalties for delinquency and default, pursuant to 18 U.S.C. §3612(g).
Payments shall be applied in the following order: (1) assessment, (2) restitution principal, (3) restitution interest, (4) fine principal, (5) community restitution, (6) fine
interest, (7) penalties, and (8) costs, including cost of prosecution and court costs.
Findings for the total amount of losses are required under Chapters 109A, 110,
but before April 23, 1996.

11 OA,

and 1 13A of Title 18 for offenses committed on or after September 13, 1994,

5/24/2021
Smith
v. United
4:10:59
States
PM A-9

20-50187.159

21 U.S.C. § 841 (2019).
(a)
(1)
(2)
(b)

Unlawful acts. Except as authorized by this title, it shall be unlawful for any
person knowingly or intentionally—
to manufacture, distribute, or dispense, or possess with intent to manufacture,
distribute, or dispense, a controlled substance; or
to create, distribute, or dispense, or possess with intent to distribute or dispense,
a counterfeit substance.
Penalties. Except as otherwise provided in section 409, 418, 419, or 420 [21
USCS § 849, 859, 860, or 861], any person who violates subsection (a) of this
section shall be sentenced as follows:

(1)
(A)
(i)

In the case of a violation of subsection (a) of this section involving—
1 kilogram or more of a mixture or substance containing a detectable amount of
heroin;
(ii)
5 kilograms or more of a mixture or substance containing a detectable amount
of—
(I)
coca leaves, except coca leaves and extracts of coca leaves from which cocaine,
ecgonine, and derivatives of ecgonine or their salts have been removed;
(II)
cocaine, its salts, optical and geometric isomers, and salts of isomers;
(III) ecgonine, its derivatives, their salts, isomers, and salts of isomers; or
(IV) any compound, mixture, or preparation which contains any quantity of any of
the substances referred to in subclauses (I) through (III);
(iii) 280 grams or more of a mixture or substance described in clause (ii) which
contains cocaine base;
(iv) 100 grams or more of phencyclidine (PCP) or 1 kilogram or more of a mixture or
substance containing a detectable amount of phencyclidine (PCP);
(v)
10 grams or more of a mixture or substance containing a detectable amount of
lysergic acid diethylamide (LSD);
(vi) 400 grams or more of a mixture or substance containing a detectable amount of
N-phenyl-N- [1-(2-phenylethyl)-4-piperidinyl] propanamide or 100 grams or
more of a mixture or substance containing a detectable amount of any analogue
of N-phenyl-N- [1-(2-phenylethyl)-4-piperidinyl] propanamide;
(vii) 1000 kilograms or more of a mixture or substance containing a detectable
amount of marihuana, or 1,000 or more marihuana plants regardless of weight;
or
(viii) 50 grams or more of methamphetamine, its salts, isomers, and salts of its
isomers or 500 grams or more of a mixture or substance containing a detectable
amount of methamphetamine, its salts, isomers, or salts of its isomers;
such person shall be sentenced to a term of imprisonment which may not be less than
10 years or more than life and if death or serious bodily injury results from the use of
such substance shall be not less than 20 years or more than life, a fine not to exceed the
greater of that authorized in accordance with the provisions of title 18, United States

5/24/2021
Smith
v. United
4:10:59
States
PM A-10

Code, or $10,000,000 if the defendant is an individual or $50,000,000 if the defendant
is other than an individual, or both. If any person commits such a violation after a prior
conviction for a serious drug felony or serious violent felony has become final, such
person shall be sentenced to a term of imprisonment of not less than 15 years and not
more than life imprisonment and if death or serious bodily injury results from the use
of such substance shall be sentenced to life imprisonment, a fine not to exceed the
greater of twice that authorized in accordance with the provisions of title 18, United
States Code, or $20,000,000 if the defendant is an individual or $75,000,000 if the
defendant is other than an individual, or both. If any person commits a violation of this
subparagraph or of section 409, 418, 419, or 420 [21 USCS § 849, 859, 860, or 861] after
2 or more prior convictions for a serious drug felony or serious violent felony have
become final, such person shall be sentenced to a term of imprisonment of not less than
25 years and fined in accordance with the preceding sentence. Notwithstanding section
3583 of title 18, any sentence under this subparagraph shall, in the absence of such a
prior conviction, impose a term of supervised release of at least 5 years in addition to
such term of imprisonment and shall, if there was such a prior conviction, impose a
term of supervised release of at least 10 years in addition to such term of
imprisonment. Notwithstanding any other provision of law, the court shall not place
on probation or suspend the sentence of any person sentenced under this
subparagraph. No person sentenced under this subparagraph shall be eligible for
parole during the term of imprisonment imposed therein.
(B)
In the case of a violation of subsection (a) of this section involving—
(i)
100 grams or more of a mixture or substance containing a detectable amount of
heroin;
(ii)
500 grams or more of a mixture or substance containing a detectable amount
of—
(I)
coca leaves, except coca leaves and extracts of coca leaves from which cocaine,
ecgonine, and derivatives of ecgonine or their salts have been removed;
(II)
cocaine, its salts, optical and geometric isomers, and salts of isomers;
(III) ecgonine, its derivatives, their salts, isomers, and salts of isomers; or
(IV) any compound, mixture, or preparation which contains any quantity of any of
the substances referred to in subclauses (I) through (III);
(iii) 28 grams or more of a mixture or substance described in clause (ii) which
contains cocaine base;
(iv) 10 grams or more of phencyclidine (PCP) or 100 grams or more of a mixture or
substance containing a detectable amount of phencyclidine (PCP);
(v)
1 gram or more of a mixture or substance containing a detectable amount of
lysergic acid diethylamide (LSD);
(vi) 40 grams or more of a mixture or substance containing a detectable amount of
N-phenyl-N- [1-(2-phenylethyl)-4-piperidinyl] propanamide or 10 grams or more
of a mixture or substance containing a detectable amount of any analogue of
N-phenyl-N- [1-(2-phenylethyl)-4-piperidinyl] propanamide;
(vii) 100 kilograms or more of a mixture or substance containing a detectable amount
of marihuana, or 100 or more marihuana plants regardless of weight; or

5/24/2021
Smith
v. United
4:10:59
States
PM A-11

(viii) 5 grams or more of methamphetamine, its salts, isomers, and salts of its isomers
or 50 grams or more of a mixture or substance containing a detectable amount
of methamphetamine, its salts, isomers, or salts of its isomers;
such person shall be sentenced to a term of imprisonment which may not be less than
5 years and not more than 40 years and if death or serious bodily injury results from
the use of such substance shall be not less than 20 years or more than life, a fine not
to exceed the greater of that authorized in accordance with the provisions of title 18,
United States Code, or $5,000,000 if the defendant is an individual or $25,000,000 if
the defendant is other than an individual, or both. If any person commits such a
violation after a prior conviction for a serious drug felony or serious violent felony has
become final, such person shall be sentenced to a term of imprisonment which may not
be less than 10 years and not more than life imprisonment and if death or serious
bodily injury results from the use of such substance shall be sentenced to life
imprisonment, a fine not to exceed the greater of twice that authorized in accordance
with the provisions of title 18, United States Code, or $8,000,000 if the defendant is an
individual or $50,000,000 if the defendant is other than an individual, or both.
Notwithstanding section 3583 of title 18, any sentence imposed under this
subparagraph shall, in the absence of such a prior conviction, include a term of
supervised release of at least 4 years in addition to such term of imprisonment and
shall, if there was such a prior conviction, include a term of supervised release of at
least 8 years in addition to such term of imprisonment. Notwithstanding any other
provision of law, the court shall not place on probation or suspend the sentence of any
person sentenced under this subparagraph. No person sentenced under this
subparagraph shall be eligible for parole during the term of imprisonment imposed
therein.

5/24/2021
Smith
v. United
4:10:59
States
PM A-12

21 U.S.C. § 846 (2019).
Any person who attempts or conspires to commit any offense defined in this title
shall be subject to the same penalties as those prescribed for the offense, the
commission of which was the object of the attempt or conspiracy

5/24/2021
Smith
v. United
4:10:59
States
PM A-13

21 U.S.C. § 853.
(a)

(1)
(2)
(3)

Property subject to criminal forfeiture. Any person convicted of a violation of this
title or title III punishable by imprisonment for more than one year shall forfeit
to the United States, irrespective of any provision of State law—
any property constituting, or derived from, any proceeds the person obtained,
directly or indirectly, as the result of such violation;
any of the person’s property used, or intended to be used, in any manner or part,
to commit, or to facilitate the commission of, such violation; and
in the case of a person convicted of engaging in a continuing criminal enterprise
in violation of section 408 of this title (21 U.S.C. 848), the person shall forfeit,
in addition to any property described in paragraph (1) or (2), any of his interest
in, claims against, and property or contractual rights affording a source of
control over, the continuing criminal enterprise.

The court, in imposing sentence on such person, shall order, in addition to any other
sentence imposed pursuant to this title or title III, that the person forfeit to the United
States all property described in this subsection. In lieu of a fine otherwise authorized
by this part [21 USCS §§ 841 et seq.], a defendant who derives profits or other proceeds
from an offense may be fined not more than twice the gross profits or other proceeds.
(b)
(1)
(2)
(c)

(d)

(1)
(2)
(e)

Meaning of term “property”. Property subject to criminal forfeiture under this
section includes—
real property, including things growing on, affixed to, and found in land; and
tangible and intangible personal property, including rights, privileges, interests,
claims, and securities.
Third party transfers. All right, title, and interest in property described in
subsection (a) vests in the United States upon the commission of the act giving
rise to forfeiture under this section. Any such property that is subsequently
transferred to a person other than the defendant may be the subject of a special
verdict of forfeiture and thereafter shall be ordered forfeited to the United
States, unless the transferee establishes in a hearing pursuant to subsection (n)
that he is a bona fide purchaser for value of such property who at the time of
purchase was reasonably without cause to believe that the property was subject
to forfeiture under this section.
Rebuttable presumption. There is a rebuttable presumption at trial that any
property of a person convicted of a felony under this title or title III is subject to
forfeiture under this section if the United States establishes by a preponderance
of the evidence that—
such property was acquired by such person during the period of the violation of
this title or title III or within a reasonable time after such period; and
there was no likely source for such property other than the violation of this title
or title III.
Protective orders.

5/24/2021
Smith
v. United
4:10:59
States
PM A-14

(1)

(A)

(B)

(i)

(ii)

Upon application of the United States, the court may enter a restraining order
or injunction, require the execution of a satisfactory performance bond, or take
any other action to preserve the availability of property described in subsection
(a) for forfeiture under this section—
upon the filing of an indictment or information charging a violation of this title
or title III for which criminal forfeiture may be ordered under this section and
alleging that the property with respect to which the order is sought would, in the
event of conviction, be subject to forfeiture under this section; or
prior to the filing of such an indictment or information, if, after notice to persons
appearing to have an interest in the property and opportunity for a hearing, the
court determines that—
there is a substantial probability that the United States will prevail on the issue
of forfeiture and that failure to enter the order will result in the property being
destroyed, removed from the jurisdiction of the court, or otherwise made
unavailable for forfeiture; and
the need to preserve the availability of the property through the entry of the
requested order outweighs the hardship on any party against whom the order
is to be entered:

Provided, however, That an order entered pursuant to subparagraph (B) shall be
effective for not more than ninety days, unless extended by the court for good cause
shown or unless an indictment or information described in subparagraph (A) has been
filed.
(2)

(3)

(4)
(A)

A temporary restraining order under this subsection may be entered upon
application of the United States without notice or opportunity for a hearing
when an information or indictment has not yet been filed with respect to the
property, if the United States demonstrates that there is probable cause to
believe that the property with respect to which the order is sought would, in the
event of conviction, be subject to forfeiture under this section and that provision
of notice will jeopardize the availability of the property for forfeiture. Such a
temporary order shall expire not more than fourteen days after the date on
which it is entered, unless extended for good cause shown or unless the party
against whom it is entered consents to an extension for a longer period. A
hearing requested concerning an order entered under this paragraph shall be
held at the earliest possible time and prior to the expiration of the temporary
order.
The court may receive and consider, at a hearing held pursuant to this
subsection, evidence and information that would be inadmissible under the
Federal Rules of Evidence.
Order to repatriate and deposit.
In general. Pursuant to its authority to enter a pretrial restraining order under
this section, the court may order a defendant to repatriate any property that
may be seized and forfeited, and to deposit that property pending trial in the

5/24/2021
Smith
v. United
4:10:59
States
PM A-15

(B)

(f)

(g)

(h)

(i)
(1)

registry of the court, or with the United States Marshals Service or the
Secretary of the Treasury, in an interest-bearing account, if appropriate.
Failure to comply. Failure to comply with an order under this subsection, or an
order to repatriate property under subsection (p), shall be punishable as a civil
or criminal contempt of court, and may also result in an enhancement of the
sentence of the defendant under the obstruction of justice provision of the
Federal Sentencing Guidelines.
Warrant of seizure. The Government may request the issuance of a warrant
authorizing the seizure of property subject to forfeiture under this section in the
same manner as provided for a search warrant. If the court determines that
there is probable cause to believe that the property to be seized would, in the
event of conviction, be subject to forfeiture and that an order under subsection
(e) may not be sufficient to assure the availability of the property for forfeiture,
the court shall issue a warrant authorizing the seizure of such property.
Execution. Upon entry of an order of forfeiture under this section, the court shall
authorize the Attorney General to seize all property ordered forfeited upon such
terms and conditions as the court shall deem proper. Following entry of an order
declaring the property forfeited, the court may, upon application of the United
States, enter such appropriate restraining orders or injunctions, require the
execution of satisfactory performance bonds, appoint receivers, conservators,
appraisers, accountants, or trustees, or take any other action to protect the
interest of the United States in the property ordered forfeited. Any income
accruing to or derived from property ordered forfeited under this section may be
used to offset ordinary and necessary expenses to the property which are
required by law, or which are necessary to protect the interests of the United
States or third parties.
Disposition of property. Following the seizure of property ordered forfeited under
this section, the Attorney General shall direct the disposition of the property by
sale or any other commercially feasible means, making due provision for the
rights of any innocent persons. Any property right or interest not exercisable by,
or transferable for value to, the United States shall expire and shall not revert
to the defendant, nor shall the defendant or any person acting in concert with
him or on his behalf be eligible to purchase forfeited property at any sale held
by the United States. Upon application of a person, other than the defendant or
a person acting in concert with him or on his behalf, the court may restrain or
stay the sale or disposition of the property pending the conclusion of any appeal
of the criminal case giving rise to the forfeiture, if the applicant demonstrates
that proceeding with the sale or disposition of the property will result in
irreparable injury, harm, or loss to him.
Authority of the Attorney General. With respect to property ordered forfeited
under this section, the Attorney General is authorized to—
grant petitions for mitigation or remission of forfeiture, restore forfeited property
to victims of a violation of this title, or take any other action to protect the rights

5/24/2021
Smith
v. United
4:10:59
States
PM A-16

(2)
(3)
(4)

(5)
(j)

(k)
(1)
(2)

(l)

(m)

(n)
(1)

of innocent persons which is in the interest of justice and which is not
inconsistent with the provisions of this section;
compromise claims arising under this section;
award compensation to persons providing information resulting in a forfeiture
under this section;
direct the disposition by the United States, in accordance with the provisions of
section 511(e) of this title (21 U.S.C. 881(e)), of all property ordered forfeited
under this section by public sale or any other commercially feasible means,
making due provision for the rights of innocent persons; and
take appropriate measures necessary to safeguard and maintain property
ordered forfeited under this section pending its disposition.
Applicability of civil forfeiture provisions. Except to the extent that they are
inconsistent with the provisions of this section, the provisions of section 511(d)
of this title (21 U.S.C. 881(d)) shall apply to a criminal forfeiture under this
section.
Bar on intervention. Except as provided in subsection (n), no party claiming an
interest in property subject to forfeiture under this section may—
intervene in a trial or appeal of a criminal case involving the forfeiture of such
property under this section; or
commence an action at law or equity against the United States concerning the
validity of his alleged interest in the property subsequent to the filing of an
indictment or information alleging that the property is subject to forfeiture
under this section.
Jurisdiction to enter orders. The district courts of the United States shall have
jurisdiction to enter orders as provided in this section without regard to the
location of any property which may be subject to forfeiture under this section or
which has been ordered forfeited under this section.
Depositions. In order to facilitate the identification and location of property
declared forfeited and to facilitate the disposition of petitions for remission or
mitigation of forfeiture, after the entry of an order declaring property forfeited
to the United States, the court may, upon application of the United States, order
that the testimony of any witness relating to the property forfeited be taken by
deposition and that any designated book, paper, document, record, recording, or
other material not privileged be produced at the same time and place, in the
same manner as provided for the taking of depositions under Rule 15 of the
Federal Rules of Criminal Procedure.
Third party interests.
Following the entry of an order of forfeiture under this section, the United States
shall publish notice of the order and of its intent to dispose of the property in
such manner as the Attorney General may direct. The Government may also, to
the extent practicable, provide direct written notice to any person known to have
alleged an interest in the property that is the subject of the order of forfeiture
as a substitute for published notice as to those persons so notified.

5/24/2021
Smith
v. United
4:10:59
States
PM A-17

(2)

(3)

(4)

(5)

(6)
(A)

(B)

Any person, other than the defendant, asserting a legal interest in property
which has been ordered forfeited to the United States pursuant to this section
may, within thirty days of the final publication of notice or his receipt of notice
under paragraph (1), whichever is earlier, petition the court for a hearing to
adjudicate the validity of his alleged interest in the property. The hearing shall
be held before the court alone, without a jury.
The petition shall be signed by the petitioner under penalty of perjury and shall
set forth the nature and extent of the petitioner’s right, title, or interest in the
property, the time and circumstances of the petitioner’s acquisition of the right,
title, or interest in the property, any additional facts supporting the petitioner’s
claim, and the relief sought.
The hearing on the petition shall, to the extent practicable and consistent with
the interests of justice, be held within thirty days of the filing of the petition.
The court may consolidate the hearing on the petition with a hearing on any
other petition filed by a person other than the defendant under this subsection.
At the hearing, the petitioner may testify and present evidence and witnesses
on his own behalf, and cross-examine witnesses who appear at the hearing. The
United States may present evidence and witnesses in rebuttal and in defense of
its claim to the property and cross-examine witnesses who appear at the
hearing. In addition to testimony and evidence presented at the hearing, the
court shall consider the relevant portions of the record of the criminal case which
resulted in the order of forfeiture.
If, after the hearing, the court determines that the petitioner has established by
a preponderance of the evidence that—
the petitioner has a legal right, title, or interest in the property, and such right,
title, or interest renders the order of forfeiture invalid in whole or in part
because the right, title, or interest was vested in the petitioner rather than the
defendant or was superior to any right, title, or interest of the defendant at the
time of the commission of the acts which gave rise to the forfeiture of the
property under this section; or
the petitioner is a bona fide purchaser for value of the right, title, or interest in
the property and was at the time of purchase reasonable without cause to
believe that the property was subject to forfeiture under this section;

the court shall amend the order of forfeiture in accordance with its determination.
(7)

(o)
(p)

Following the court’s disposition of all petitions filed under this subsection, or
if no such petitions are filed following the expiration of the period provided in
paragraph (2) for the filing of such petitions, the United States shall have clear
title to property that is the subject of the order of forfeiture and may warrant
good title to any subsequent purchaser or transferee.
Construction. The provisions of this section shall be liberally construed to
effectuate its remedial purposes.
Forfeiture of substitute property.

5/24/2021
Smith
v. United
4:10:59
States
PM A-18

(1)
(A)
(B)
(C)
(D)
(E)
(2)

(3)

(q)

(1)
(2)

(3)

In general. Paragraph (2) of this subsection shall apply, if any property
described in subsection (a), as a result of any act or omission of the defendant—
cannot be located upon the exercise of due diligence;
has been transferred or sold to, or deposited with, a third party;
has been placed beyond the jurisdiction of the court;
has been substantially diminished in value; or
has been commingled with other property which cannot be divided without
difficulty.
Substitute property. In any case described in any of subparagraphs (A) through
(E) of paragraph (1), the court shall order the forfeiture of any other property of
the defendant, up to the value of any property described in subparagraphs (A)
through (E) of paragraph (1), as applicable.
Return of property to jurisdiction. In the case of property described in paragraph
(1)(C), the court may, in addition to any other action authorized by this
subsection, order the defendant to return the property to the jurisdiction of the
court so that the property may be seized and forfeited.
Restitution for cleanup of clandestine laboratory sites. The court, when
sentencing a defendant convicted of an offense under this title or title III
involving the manufacture, the possession, or the possession with intent to
distribute, of amphetamine or methamphetamine, shall—
order restitution as provided in sections 3612 and 3664 of title 18, United States
Code [18 USCS §§ 3612 and 3664];
order the defendant to reimburse the United States, the State or local
government concerned, or both the United States and the State or local
government concerned for the costs incurred by the United States or the State
or local government concerned, as the case may be, for the cleanup associated
with the manufacture of amphetamine or methamphetamine by the defendant,
or on premises or in property that the defendant owns, resides, or does business
in; and
order restitution to any person injured as a result of the offense as provided in
section 3663A of title 18, United States Code [18 USCS § 3663A].

5/24/2021
Smith v. United
4:10:59States
PM A-19

USSG § 3B1.1.
Aggravating Role
Based on the defendant’s role in the offense, increase the offense level as follows:
(a)
(b)

(c)

If the defendant was an organizer or leader of a criminal activity that involved
five or more participants or was otherwise extensive, increase by 4 levels.
If the defendant was a manager or supervisor (but not an organizer or leader)
and the criminal activity involved five or more participants or was otherwise
extensive, increase by 3 levels.
If the defendant was an organizer, leader, manager, or supervisor in any
criminal activity other than described in (a) or (b), increase by 2 levels.

Commentary
Application Notes:
1.
A “participant” is a person who is criminally responsible for the commission of
the offense, but need not have been convicted. A person who is not criminally
responsible for the commission of the offense (e.g., an undercover law
enforcement officer) is not a participant.
2.
To qualify for an adjustment under this section, the defendant must have been
the organizer, leader, manager, or supervisor of one or more other participants.
An upward departure may be warranted, however, in the case of a defendant
who did not organize, lead, manage, or supervise another participant, but who
nevertheless exercised management responsibility over the property, assets, or
activities of a criminal organization.
3.
In assessing whether an organization is “otherwise extensive,” all persons
involved during the course of the entire offense are to be considered. Thus, a
fraud that involved only three participants but used the unknowing services of
many outsiders could be considered extensive.
4.
In distinguishing a leadership and organizational role from one of mere
management or supervision, titles such as “kingpin” or “boss” are not
controlling. Factors the court should consider include the exercise of decision
making authority, the nature of participation in the commission of the offense,
the recruitment of accomplices, the claimed right to a larger share of the fruits
of the crime, the degree of participation in planning or organizing the offense,
the nature and scope of the illegal activity, and the degree of control and
authority exercised over others. There can, of course, be more than one person
who qualifies as a leader or organizer of a criminal association or conspiracy.
This adjustment does not apply to a defendant who merely suggests committing
the offense.
Background: This section provides a range of adjustments to increase the offense level
based upon the size of a criminal organization (i.e., the number of participants in the
offense) and the degree to which the defendant was responsible for committing the

5/24/2021
Smith
v. United
4:10:59
States
PM A-20

offense. This adjustment is included primarily because of concerns about relative
responsibility. However, it is also likely that persons who exercise a supervisory or
managerial role in the commission of an offense tend to profit more from it and present
a greater danger to the public and/or are more likely to recidivate. The Commission’s
intent is that this adjustment should increase with both the size of the organization
and the degree of the defendant’s responsibility.
In relatively small criminal enterprises that are not otherwise to be considered as
extensive in scope or in planning or preparation, the distinction between organization
and leadership, and that of management or supervision, is of less significance than in
larger enterprises that tend to have clearly delineated divisions of responsibility. This
is reflected in the inclusiveness of § 3B1.1(c).

5/24/2021
Smith
v. United
4:10:59
States
PM A-21

Sup. Ct. R. 10.
Review on a writ of certiorari is not a matter of right, but of judicial discretion. A
petition for a writ of certiorari will be granted only for compelling reasons. The
following, although neither controlling nor fully measuring the Court’s discretion,
indicate the character of the reasons the Court considers:
(a)

(b)

(c)

a United States court of appeals has entered a decision in conflict with the
decision of another United States court of appeals on the same important
matter; has decided an important federal question in a way that conflicts with
a decision by a state court of last resort; or has so far departed from the accepted
and usual course of judicial proceedings, or sanctioned such a departure by a
lower court, as to call for an exercise of this Court’s supervisory power;
a state court of last resort has decided an important federal question in a way
that conflicts with the decision of another state court of last resort or of a United
States court of appeals;
a state court or a United States court of appeals has decided an important
question of federal law that has not been, but should be, settled by this Court,
or has decided an important federal question in a way that conflicts with
relevant decisions of this Court.

A petition for a writ of certiorari is rarely granted when the asserted error consists of
erroneous factual findings or the misapplication of a properly stated rule of law.

5/24/2021
Smith
v. United
4:10:59
States
PM A-22

